CREDIT LINE ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS, MY CHOICE VISA AND MY PREFERRED VISA
AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR MY CHOICE VISA
AND MY PREFERRED VISA CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE.
PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY
PARTS ARE UNCLEAR.

P.O. Box 189
Newburgh, IN 47629-0189
(812) 253-MYCU (6928) (phone)
(270) 830-8233 (phone)
(812) 853-1749 (fax)

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

My Choice VISA:

_______%.

This APR will vary with the market based on the Prime Rate.
My Choice Plus VISA:

_______%.

This APR will vary with the market based on the Prime Rate.
My Choice Secured VISA:

_______%.

This APR will vary with the market based on the Prime Rate.
My Choice Plus Secured VISA:

_______%.

This APR will vary with the market based on the Prime Rate.
My Preferred VISA:

_______%.

This APR will vary with the market based on the Prime Rate.
My Preferred Plus VISA:

_______%.

This APR will vary with the market based on the Prime Rate.
Annual Percentage Rate
(APR) For Balance
Transfers

My Choice VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Choice Plus VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Choice Secured VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Choice Plus Secured VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Preferred VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Preferred Plus VISA: _______%.
This APR will vary with the market based on the Prime Rate.

SEE PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

Page 1 of 6

OTBS 016YCC HFCU (2/20)

Interest Rate and Interest Charges (continued)
Annual Percentage Rate
(APR) For Cash Advances

My Choice VISA: _______%
This APR will vary with the market based on the Prime Rate.
My Choice Plus VISA: _______%
This APR will vary with the market based on the Prime Rate.
My Choice Secured VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Choice Plus Secured VISA: _______%.
This APR will vary with the market based on the Prime Rate.
My Preferred VISA: _______%
This APR will vary with the market based on the Prime Rate.
My Preferred Plus VISA: _______%
This APR will vary with the market based on the Prime Rate.
Consumer Line of Credit: _______%

Penalty APR And When
it Applies

18.00%
This APR may be applied to Your VISA Feature Category if:
1) You make a late payment.
How Long Will The Penalty APR Apply? If Your APRs are increased for this reason, the
Penalty APR applied to transactions that occur after the increase may be applied
indefinitely. For transactions that occurred prior to the effective date of the increase, the
increase will apply indefinitely unless 6 consecutive payments are received on or before
the due date during the six-month period following such increase.

Paying Interest

For VISA, We will not charge You interest on purchases if You pay Your entire balance owed
each month within 25 days of Your statement closing date. For all Feature Categories, We will
begin charging interest on balance transfers and cash advances on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees





Overdraft Transfer
Cash Advance
Balance Transfer
Foreign Transaction

$5.00
For VISA, up to 2.00% of each advance ($10.00 minimum).
For VISA, up to 4.00% of each transfer ($10.00 minimum).
For VISA, 1.00% of each foreign currency transaction in U.S. dollars.
For VISA, 1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Late Payment
 Returned Payment

For VISA, up to $25.00.
For Consumer Line of Credit, 5.00% of the payment ($13.00 maximum).
For VISA, up to $30.00.
For Consumer Line of Credit, $30.00.

How We Will Calculate Your Balance: For VISA, We use a method called "average daily balance (including new purchases)"
For Consumer Line of Credit, We use a method called "daily balance." See Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
SEE PAGE 1 for more important information about Your Account
Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

Page 2 of 6

OTBS 016YCC HFCU (2/20)

In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean HERITAGE FEDERAL CREDIT UNION. The words "You" and "Your" mean each
person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any My Choice VISA, My
Choice Plus VISA, My Choice Secured VISA, My Choice Plus Secured VISA, My Preferred VISA or My Preferred Plus VISA Credit Card issued to You by Us and
any duplicates or renewals. "Convenience Checks" mean the special Account access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found
herein constitute Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to)
telephonic requests, advance request forms, vouchers, checks, charge slips, Convenience Checks, debit cards, ATM cards, Credit Cards, wire transfers, direct
transfers and/or wire transfers to specific payees identified by You, direct transfers to Your share/share draft or other Credit Union account and the like. Regardless
of the means by which any advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account,
with actual, apparent or implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Consumer Line of Credit (including Overdraft Protection), My Choice VISA, My
Choice Plus VISA, My Choice Secured VISA, My Choice Plus Secured VISA, My Preferred VISA and My Preferred Plus VISA.

Feature Category

Variable Rate
Index

Daily Periodic
Rate

Margin

Annual Percentage
Rate

My Choice VISA

________

________

______________%

______________%

My Choice Plus VISA

________

________

______________%

______________%

My Choice Secured VISA

________

________

______________%

______________%

My Choice Secured Plus VISA

________

________

______________%

______________%

My Preferred VISA

________

________

______________%

______________%

My Preferred Plus VISA

________

________

______________%

______________%

______________%

______________%

Consumer Line of Credit

ADVANCES. Whenever You request a transaction, We may require You to
prove Your identity. Advances made on Your Account will be processed
according to the instructions You give Us (such as by wire transfer, direct transfer
to Your Credit Union account or by other such means) and You authorize Us to
do this, or We may draw a draft or check made payable to You and mail it to
You. When the amount advanced appears on a subsequent statement, that will
be conclusive evidence of Your advance request unless You notify Us that You
disagree with any such item appearing on Your periodic statement according to
the provision of this Agreement titled "Your Billing Rights: Keep this Document
for Future Use."
SECURITY. As permitted by law, to secure all transactions under this Agreement
in either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may
enforce Our right to do so without further notice to You. Additionally, You agree
that We may set-off any mutual indebtedness.
OTHER SECURITY. Collateral (other than household goods or any dwelling)
given as security for any other loan You may have with Us will secure
all amounts You owe Us now and in the future if that status is reflected in
the "Truth-in-Lending Disclosure" in any particular Agreement evidencing
such debt.
CONSENSUAL LIEN ON SHARES. If You have been issued a Credit Card,
ATM card or debit card, You grant and consent to a lien on Your shares
with Us (except for IRA and Keogh accounts) and any dividends due or
to become due to You from Us to the extent You owe on any unpaid
Credit Card balance and/or unpaid Consumer Line of Credit Balance
created through the use of Your ATM card or debit card.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
each Feature Category for which You are approved. Unless You are in default,
any Credit Limits established for You will generally be self-replenishing as You
make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You
will pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit
available during any time that any aspect of Your Account is in default.
Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You
understand that any such Account access device(s) will be mailed only to the
primary Borrower at the address that We have on file for You. We may refuse to
follow any instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You
need only pay the Minimum Monthly Payments, You understand that You
have the right to repay at any time without penalty. You also understand that
You will only be charged periodic Finance Charges to the date You repay
Your entire balance. You may make larger payments without penalty. Any
partial payment or prepayment will not delay Your next scheduled payment.
All payments to Us must be in lawful money of the United States. We may
apply each payment to whichever Feature Category We wish. For all Feature
Categories (except VISA), payments will be applied first to any Late Charges
owing, then to the Finance Charge due, then to the outstanding principal
balance. To the extent permitted by law, We may apply VISA payments in
an order of Our choosing. Any unpaid portion of the Finance Charge will be
paid by subsequent payments and will not be added to Your principal
balance. You understand that any delay in the repayment of Your unpaid
balance will increase Your periodic Finance Charges and any acceleration
in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.
Consumer Line of Credit Minimum Monthly Payments will be established at the
close of each billing cycle at an amount equal to 3.00% of Your then outstanding
principal balance, subject to the lesser of $15.00 or Your balance, plus any
portion of the Minimum Payments shown on prior statement(s) which remains
unpaid, plus any amount that exceeds Your approved Credit Limit.
My Choice VISA, My Choice Plus VISA, My Choice Secured VISA, My Choice
Plus Secured VISA, My Preferred VISA and My Preferred Plus VISA Minimum
Payments will be an amount equal to 3.00% of Your new unpaid balance at the
end of each billing cycle, subject to the lesser of $25.00 or Your balance, plus
any portion of the Minimum Payments shown on prior statement(s) which
remains unpaid, plus any amount that exceeds Your approved Credit Limit.
If You make a payment by 5:00 p.m. central time, We will consider that day to
be the day of Your payment. However, if You make a payment after 5:00 p.m.
central time, We will consider that the payment was made on the next day.
You may, by separate agreement, authorize Us to charge Your payment directly
to Your share or share draft account.

Page 3 of 6

OTBS 016YCC HFCU (2/20)

LATE CHARGE (EXCEPT VISA). If Your payment is more than 10 days late,
You will be charged the lesser of $13.00 or 5.00% of the payment due.
OTHER FEES AND CHARGES (EXCEPT VISA). You will be charged the
following fees associated with the use of Your Account: (a) $30.00 for any check
(or other negotiable instrument used for payment) which is returned unpaid; and
(b) an overdraft transfer fee FINANCE CHARGE of $5.00 for each such advance.
FINANCE CHARGES (EXCEPT VISA). A Finance Charge will be assessed on
any unpaid principal balance for each Feature Category of Your Account for the
period such balance is outstanding. Balances change each time advances are
made, payments are made or credits given under any Feature Category. The
Finance Charge begins to accrue on the date of each advance and there is no
grace period.
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT VISA). For all
Feature Categories (except VISA), the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle
being accounted for by the applicable Daily Periodic Rate. The unpaid balance
is the balance each day after payments, credits, and unpaid Finance Charges to
that balance have been subtracted and any new advances or other charges have
been added to Your unpaid balance. These daily Finance Charges are then
added together and the sum is the amount of the Finance Charge owed for the
Feature Category being accounted for. The total Finance Charge You owe on
Your Account for each billing cycle is the sum of all the Finance Charges due for
all applicable Feature Categories.
VISA FINANCE CHARGES. In the case of any transactions under Your My
Choice VISA or My Preferred VISA Feature Categories, the balances subject
to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). To get the average
daily balance, We take the beginning balance each day, add any new
purchases, balance transfers, cash advances, debit adjustments or other
charges and subtract any payments, credits and unpaid Finance Charges.
This gives Us the daily balance. Then, We add up all the daily balances for the
billing cycle and divide them by the number of days in the billing cycle. The
Finance Charge for a billing cycle is computed by multiplying the average daily
balance subject to a Finance Charge by the Daily Periodic Rate times the
number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from
the later of the date they are posted to Your Account or from the first day of the
billing cycle in which the transaction is posted to Your Account.
VISA VARIABLE RATE. Advances are subject to a Variable Rate which is
based on the highest Prime Rate as published in the Money Rates Section of
The Wall Street Journal in effect on the last day of each calendar month
("Index") plus Our ("Margin"). The Index plus the Margin equals the Interest
Rate. Changes in the Index will cause changes in the Interest Rate on the 1st
day of the billing cycle that immediately follows any such change in the Index.
Increases or decreases in the Interest Rate will result in like increases or
decreases in the Finance Charge and may affect the number of Your
scheduled payments. Your Interest Rate will never be greater than 18.00%
and will apply to the remaining principal balance. If the Index becomes
unavailable, We may select another Index and Margin which would result in a
substantially similar Interest Rate.
VISA PENALTY RATE. If Your VISA Feature Category is more than 60 days past
due, subject to applicable law, the Daily Periodic Rate applicable to Your entire
balance of transactions existing at that time will become fixed and increase to
0.049315% (corresponding ANNUAL PERCENTAGE RATE 18.00%). During the
six month period following such an increase, if We receive the first six consecutive
required minimum periodic payments when due, the rate applicable to the balance
of transactions that occurred prior to such increase will be returned to the standard
rate that would have otherwise been in effect.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $100.00 (or
in such increments as We may from time to time determine) to Your share draft
account by an advance on Your Account, subject to this provision, to clear any
overdraft on Your share draft account. Whether or not such transfers occur will
be controlled by this Agreement. In any event, You hold Us harmless for any and
all liability which might otherwise arise if the transfer does not occur. Overdraft
protection automatically ceases if this Agreement is ever cancelled or terminated
or Your Account is in default.

Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which
there is a debit or credit balance or when a Finance Charge is imposed. We need
not send You a statement if We feel Your Account is uncollectible or if We have
started collection proceedings against You because You defaulted. EACH
STATEMENT IS DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT
UNLESS YOU ESTABLISH A BILLING ERROR PURSUANT TO THE
FEDERAL TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are
under no obligation to honor Your Convenience Checks if: (1) by paying a
Convenience Check, You would exceed Your Credit Limit; (2) Your Cards or
Convenience Checks have been reported lost or stolen; (3) Your Account has
been cancelled or has expired. If a postdated Convenience Check is paid and,
as a result, any other Convenience Check is returned unpaid, We are not
responsible for any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership
or custodial proceeding brought by or against You; or (c) You have made a false
or misleading statement in Your credit application and/or in Your representations
to Us while You owe money on Your Account; or (d) A judgment or tax lien should
be filed against You or any attachment or garnishment should be issued against
any of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should,
in good faith, believe Your ability to repay Your indebtedness hereunder is or
soon will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of every Feature Category of Your Account
immediately due and payable, without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay
all court costs, private process server fees, investigation fees or other
costs incurred in collection and reasonable attorneys' fees incurred in the course
of collecting any amounts owed under this Agreement or in the recovery of
any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement
if We delay enforcing them. We can accept late payments, partial payments or
any other payments, even if they are marked "paid in full" without losing any of
Our rights under this Agreement. If any provision of this or any related agreement
is determined to be unenforceable or invalid, all other provisions remain in full
force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You
move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing
or delivering to You written notice of the changes as prescribed by the Federal
Truth-In-Lending Act. To the extent permitted by law, the right to change the
terms of this Agreement includes, but is not limited to, the right to change the
periodic rate applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," which is delivered together with
this Agreement or at a later date becomes an integrated part of this Agreement
And Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or
other financial information related to You, at Our request. You also agree that
We may, from time to time, as We deem necessary, make inquiries pertaining
to Your employment, credit standing and financial responsibility in accordance
with applicable laws and regulations. You further agree that We may give
information about the status and payment history of Your Account to consumer
credit reporting agencies, a prospective employer or insurer, or a state or
federal licensing agency having any apparent legitimate business need for
such information.

Page 4 of 6

OTBS 016YCC HFCU (2/20)

TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in default.
You will, in any case, remain liable to pay any unpaid balances according to the
terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of
the State of Indiana, except to the extent that such laws are inconsistent with
controlling federal law.
SPECIFIC TERMS APPLICABLE TO YOUR
MY CHOICE VISA, MY CHOICE PLUS VISA, MY CHOICE SECURED
VISA, MY CHOICE PLUS SECURED VISA, MY PREFERRED VISA
AND MY PREFERRED PLUS VISA CREDIT CARDS
USE OF YOUR CARD. You may use Your Card to buy goods and services
in any place that it is honored and to get cash advances at participating
financial institutions. You agree not to use Your Card for illegal transactions
including, but not limited to, advances made for the purpose of gambling
and/or wagering where such practices are in violation of applicable state
and/or federal law.

balance transfer fee FINANCE CHARGE in an amount equal to the greater of
4.00% of each such balance transfer or $10.00.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
Cards or Convenience Checks, You will immediately call Us during regular
business hours at the telephone number shown in this Agreement, and after
hours, on weekends and holidays at (855) 887-3938. You may also report lost
or stolen Credit Cards or Convenience Checks by writing to Us at the address
shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold
and apply this credit against future purchases and cash advances, or if it is $1.00
or more refund it on Your written request or automatically deposit it to Your Share
Account after six months.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the
Fair Credit Billing Act.

OWNERSHIP. Your Card remains Our property and may be cancelled by Us at
any time without notice. You agree to surrender Your Card and to discontinue its
use immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give Us the following information:




Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill,
describe what You believe is wrong and why You believe it is a mistake.

You must contact Us:
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or
other slips You may sign or receive when using Your Card contain terms, this
Agreement is the contract which solely applies to all transactions involving
the Card.




Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us during regular business
hours at the telephone number shown in this Agreement, and after hours, on
weekends and holidays at (855)887-3938. You may also notify Us of the loss, theft,
or possible unauthorized use by writing to Us at the address shown in this
Agreement. In any case, Your liability will not exceed $50.00.

You must notify Us of any potential errors in writing. You may call Us, but if You
do We are not required to investigate any potential errors and You may have to
pay the amount in question.

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.

1)

FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives; or (b)
the government-mandated rate in effect for the applicable central processing
date. For transactions that are initiated in a foreign currency, You will be charged
1.00% of the final settlement amount. For transactions occurring in foreign
countries and initiated in U.S. Dollars, You will be charged 1.00% of the final
settlement amount.

While We investigate whether or not there has been an error:

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

2)






We cannot try to collect the amount in question, or report You as
delinquent on that amount.
The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are
responsible for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.




LATE CHARGE. If Your payment is one or more days late, You will be charged
the lesser of: (a) $25.00; or (b) the amount of the minimum payment due.
OTHER FEES AND CHARGES. You will be charged the following fees
associated with the use of Your Card: (a) the lesser of $30.00 or the required
minimum payment amount for the returned payment for any check (or other
negotiable instrument used for payment) which is returned unpaid; (b) a cash
advance fee FINANCE CHARGE in an amount equal to the greater of 2.00% of
each such advance or $10.00 – waived when obtained inside one of Our branch
locations; (c) an overdraft transfer fee FINANCE CHARGE of $5.00 for each
such advance; (d) $15.00 for each copy of a receipt that You request; and (e) a

Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

Within 30 days of receiving Your letter, We must tell You that We
received Your letter. We will also tell You if We have already corrected
the error.
Within 90 days of receiving Your letter, We must either correct the error
or explain to You why We believe the bill is correct.

If We made a mistake: You will not have to pay the amount in question
or any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send You a statement of the amount You owe and the date payment is
due. We may then report You as delinquent if You do not pay the
amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom We
reported You as delinquent, and We must let those organizations know when
the matter has been settled between Us. If We do not follow all of the rules

Page 5 of 6

OTBS 016YCC HFCU (2/20)

above, You do not have to pay the first $50.00 of the amount You question
even if Your bill is correct.
2)
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased
with Your Credit Card, and You have tried in good faith to correct
the problem with the merchant, You may have the right not to pay the
remaining amount due on the purchase. To use this right, all of the following
must be true:
1)

The purchase must have been made in Your home state or within 100
miles of Your current mailing address, and the purchase price must
have been more than $50.00. (Note: Neither of these are necessary if

Copyright Oak Tree Business Systems, Inc., 2013-2020. All Rights Reserved.

3)

Your purchase was based on an advertisement We mailed to You, or if
We own the company that sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases
made with cash advances from an ATM or with a check that accesses
Your Credit Card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 6 of 6

OTBS 016YCC HFCU (2/20)

